                                          NATIONAL SCIENCE FOUNDATION




               -
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                         ACTION MEMORANDUM

    TO: AIGI       File Number: A-02010004                                             Date: 6 MAR 2002
                                                                                                                  i
                                                                                                                  $I

                                                                                                                  1
    Subject:                                                                                      Page 1 of 1


         A proactive review of agency-wide purchase card statements generated six questionable purchases in the
         individual statement transactions for the SUBJECT. An interview with SUBJECT'S supervisor justified
         all expenditures.
I
         This investigation is closed.
